<html>
<title> - CHARTING A COURSE: EXPERT PERSPECTIVES ON NASA'S HUMAN EXPLORATION PROPOSALS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                           CHARTING A COURSE:
                     EXPERT PERSPECTIVES ON NASA'S 
                      HUMAN EXPLORATION PROPOSALS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            February 3, 2016

                               __________

                           Serial No. 114-58

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
                              ____________
                              
                              
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-828PDF                         WASHINGTON : 2017                        
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3057405f705345434458555c401e535f5d1e">[email&#160;protected]</a>  

      
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEPHEN KNIGHT, California           MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DRAIN LAHOOD, Illinois
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama                   ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   EDDIE BERNICE JOHNSON, Texas
STEVE KNIGHT, California
LAMAR S. SMITH, Texas
                            C O N T E N T S

                            February 3, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    10
    Written Statement............................................    12

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    14
    Written Statement............................................    16

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    18
    Written Statement............................................    20

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    22
    Written Statement............................................    24

                               Witnesses:

Mr. Tom Young, Former Director, Goddard Space Flight Center, 
  NASA; Former President and Chief Operating Officer, Martin 
  Marietta Corporation
    Oral Statement...............................................    25
    Written Statement............................................    29

Dr. John C. Sommerer, Chair, Technical Panel, Pathways to 
  Exploration Report, National Academy of Sciences
    Oral Statement...............................................    38
    Written Statement............................................    41

Dr. Paul Spudis, Senior Scientist, Lunar and Planetary Institute
    Oral Statement...............................................    46
    Written Statement............................................    49

Discussion.......................................................    55

             Appendix I: Answers to Post-Hearing Questions

Mr. Tom Young, Former Director, Goddard Space Flight Center, 
  NASA; Former President and Chief Operating Officer, Martin 
  Marietta Corporation...........................................    72

Dr. John C. Sommerer, Chair, Technical Panel, Pathways to 
  Exploration Report, National Academy of Sciences...............    76

Dr. Paul Spudis, Senior Scientist, Lunar and Planetary Institute.    89

 
                           CHARTING A COURSE:
                         EXPERT PERSPECTIVES ON
                   NASA'S HUMAN EXPLORATION PROPOSALS

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2016

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Babin. Okay. The Subcommittee on Space will come 
to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing titled ``Charting a Course: 
Expert Perspectives on NASA's Human Exploration Proposals,'' 
and I would like to recognize myself for five minutes for an 
opening statement.
    Placing a man on the Moon and returning him safely is 
widely considered one of humanity's greatest achievements. It 
cemented America's leadership on the world stage and 
demonstrated our technological superiority during the Cold War. 
Since then, NASA has made steady progress towards learning to 
live and work in space with the space shuttle and space 
station.
    Today we find ourselves at an intersection. Do we, as a 
nation, retreat from the cosmos, or do we take that next first 
step into the unknown? There appears to be a consensus that the 
horizon goal of America's human exploration program is to land 
on the surface of Mars. But how will we get there? What are the 
intermediate stepping stones on that pathway to Mars? How do we 
avoid costly and avoidable detours? How do we ensure a 
sustainable program rather than a one-off stunt? And how do we 
ensure the next Administration does not wipe the slate clean, 
erasing all the hard work of the last five years? These are all 
questions that we must address in this and future hearings.
    The SLS and Orion systems are critical to the success of 
our deep space human exploration program. Their development and 
testing is of the utmost importance to the Committee, to 
Congress, and to the nation. We have come too far now to see a 
costly and destructive cancellation. However, the use of these 
assets and the missions and mission sets on the journey to Mars 
need to be better defined. As the NASA Advisory Council 
recently stated in a recommendation to the Administrator, the 
absence of a more fully developed plan would impair the ability 
of the next Administration to propose a budget that adequately 
supports NASA's human exploration program.
    And while the administration has not provided many details 
on the plan for the journey to Mars, it has proposed possible 
mission options. For example, the Administration has proposed 
an asteroid mission as the next step for human exploration. 
This has been caveated and altered multiple times, but 
generally speaking, the Administration believes human 
astronauts should interact with an asteroid in cislunar space 
sometime in the next decade as a next step on its journey to 
Mars.
    Despite opposition from space policy experts, scientists, 
and engineers, the Administration as recently as last week 
announced early design work for the asteroid mission's 
spacecraft bus. With only nine meaningful months remaining in 
this Administration, it is puzzling that they continue to press 
ahead with the mission despite widespread criticism and doubt 
over its efficacy.
    The National Academy of Sciences released a study on human 
exploration called the ``Pathways to Exploration.'' In this 
report the Committee on Human Spaceflight determined that the 
ARM mission largely contributed to dead-end technologies that 
could not reasonably feed forward into a human mission to Mars. 
Last year, the NASA Advisory Committee suggested to the 
Administration that a more valuable use of NASA's time and 
money would be a solar electric propulsion demonstration 
mission to Mars and back as opposed to the asteroid mission.
    Alternatives to the asteroid mission proposed by the 
President have become ubiquitous in the policy discussions. For 
example, Jan Woerner, the European Space Agency Director 
General, has spent the last year advocating for an 
international lunar base. The recent Humans Orbiting Mars 
workshop presented a compelling, realistic, and affordable path 
to Mars. Also, several members of this Committee have 
suggestions and legislation as well to that effect. As the 
Administration ignores these proposals despite a groundswell of 
support from scientists and engineers, we must look beyond what 
is politically expedient today and get ready for the next few 
decades in spaceflight.
    As we prepare for the next Presidents' Administration, we 
must ensure that the plan in place for human exploration is 
based on sound engineering, planning, design, and management 
principles.
    We have asked our witnesses today to give us their expert 
opinions in the way forward. This hearing is an opportunity to 
build consensus on the way forward for human spaceflight. Human 
exploration has a long and storied history of being 
nonpartisan. It is not a Republican, it is not Democrat; it is 
an American issue. We need to get the politics out of these 
important programs for our nation's sake.
    There are thousands of men and women in this country whose 
days are impacted by the decisions that we make in this very 
building. It is easy for people confined to the beltway bubble 
to forget that our pride as Americans comes from the hard work 
and determination to make this world better. The men and women 
at NASA working on our human exploration program are not pawns 
to be moved around a chess board in the latest game of chicken 
that the Administration chooses to play with Congress. We must 
ensure NASA's work focuses on the will of the people, not the 
political whims of whatever President is in office at that 
particular time.
    NASA's human exploration program has been through a 
tumultuous seven years, and with a new President to be chosen 
by the end of this year, we must ensure that there is a 
constancy of purpose in our planning and a surefooted roadmap 
in place for the future.
    [The prepared statement of Chairman Babin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  
    Chairman Babin. I now recognize the Ranking Member, the 
gentlewoman from Maryland, for an opening statement.
    Ms. Edwards. Good morning, and thank you very much, Mr. 
Chairman. I want to welcome our distinguished panel this 
morning.
    This truly is my passion. I want to thank Chairman Babin 
for calling the hearing. I think it's really important, and 
when I look at the young people out here, not only is it my 
passion but it really is your future, and so I think the work 
that we have to do today is incredibly important.
    Each time we hold hearings on sending humans to Mars, my 
colleagues and I don't just leave the room, although today I 
will have to leave a little bit early. We don't leave the 
subject behind, and I think that that is meaningful for the 
American people. Instead, we leave with increased determination 
to help find a way to get there as soon and as safely as 
possible. I want the American people to share the collective 
excitement in this room and to embrace the desire to send human 
explorers farther into space than ever before.
    This Committee's inquiries during recent hearings have 
focused on the need for a clearly articulated plan and next 
steps, such as the Human Exploration Roadmap that the 
bipartisan, overwhelmingly bipartisan House-passed NASA 
Authorization Act of 2015 directs NASA to develop. It took a 
lot of work for all of us to come together as Republicans and 
Democrats to embrace that roadmap. I recognize that it's not an 
easy task given previous flat funding levels, uncertainty over 
future budgets, and the need to allow flexibility in planning a 
multi-decadal endeavor.
    I also acknowledge that NASA has established a strategy for 
achieving the goal and an evolvable Mars Campaign that will 
allow for flexibility in its decisions and that can take 
advantage of new knowledge and advances in technology. But 
facets of that strategy, quite frankly, are not detailed enough 
to inform mission planning and sequencing. That strategy cannot 
answer questions about whether going to the lunar surface or an 
asteroid is needed to reduce risk before sending humans to 
Mars, nor does it allow us to assess whether NASA's approach 
achieves the right balance of flexibility and definition.
    The Congressionally mandated National Academies report, 
Pathways to Exploration, recommends that NASA follow a pathway, 
a specific sequence of intermediate accomplishments and 
destinations that advance the technologies needed to reach the 
horizon goal, which they conclude is Mars.
    The NASA Advisory Council in its December 3rd, 2015, 
recommendations to the Administrator said that they were 
pleased that NASA was providing new information about its human 
exploration architecture. However, they also recommended that 
``In preparation for the 2017 transition of Administrations 
NASA further develop their plan for future Human Exploration.'' 
Well, this is because of the importance of defining a baseline 
architecture and plan that encompasses the entire human 
exploration program.
    Mr. Chairman, I'm confident that a plan of sufficient 
detail can come to fruition, but we don't have time to spare if 
we're to sustain a challenging endeavor across the upcoming 
Presidential transition. Now it's the time for us to get rid of 
the politics and actually match our goals with a plan, and 
without agreement on the substance of a plan, the path forward 
is less clear and the sustainability of progress toward the 
Mars goal is left vulnerable to rehashing of interim 
destinations or even redirection. We've seen that happen in the 
past. This last decade, despite the concerns articulated by the 
Chairman, this last decade has been fraught with confusion, 
both from the Congress, Republicans and Democrats, and 
Republican and Democratic Presidents, and it's time to put that 
aside so that we can advance the science that's necessary.
    And, make no mistake, we have to do our jobs here in 
Congress and we have to be of a mind in providing NASA with the 
necessary resources and budgetary stability to carry out such a 
plan. The Congress's recent increase in appropriations for 
fiscal year 2016 for NASA's exploration systems is a good 
start, but they need to be sustained and built upon if we're to 
reach that goal.
    So Mr. Chairman, we have a lot to discuss this morning, and 
I look forward to our witnesses' testimony, and what I would 
urge us to do is, again, let's just put the politics aside. I 
agree with the Chairman that going to space is not about 
Republicans and Democrats, and when I look at these young 
people out here and I see your future and I see the challenge 
that you're going to take on, you don't care whether it's a D 
or an R. We care that we advance the science to get us to our 
goal, and I look forward to doing that.
    Thank you, Mr. Chairman, and I yield.
    [The prepared statement of Ms. Edwards follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
     
    Chairman Babin. Thank you, Ms. Edwards. I appreciate those 
words. And I also would like to welcome all you young folks out 
there as well as you not-so-young folks. Are you all from 
Florida? Yes. Thank you for being here this morning. Louisiana? 
Okay. Well, that's good. Almost to Texas.
    And speaking of Texas, I now recognize the Chairman of the 
full Committee from the great State of Texas, Chairman Lamar 
Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    Americans are fascinated by space exploration. It fuels our 
desire to push the boundaries of what is possible and to reach 
beyond our own pale blue dot.
    In the last few years, the flagship deep space exploration 
programs at NASA, both robotic and human, have been under 
attack by the Obama Administration. This Administration 
cancelled the robotic ExoMars mission and the Constellation 
program, and it continues to propose drastic cuts to the Space 
Launch System and Orion programs. These programs were all 
developed to support deep space exploration to destinations 
like the Moon and Mars. The Obama Administration cannot claim 
that it prioritizes Mars exploration if it refuses to 
prioritize and support the programs that will get us there, and 
the budget instability created by the Administration makes it 
hard for NASA to plan and execute critical programs. For 
example, NASA recently announced that the first crewed mission 
for SLS and Orion was delayed by two years because the 
Administration would not allow NASA to budget for the programs.
    While the Administration regularly cuts SLS and Orion 
budget requests, Congress continues to restore those cuts in a 
bipartisan fashion, and there is bipartisan support within 
Congress for SLS and the Orion crew vehicle. This Committee has 
restored proposed cuts year after year in our authorization 
bills, and the House and the Senate Appropriations Committees 
restored funding for the SLS and Orion at the levels necessary 
to keep their development on track.
    The SLS and Orion programs represent what is most 
impressive about the American spirit: the desire to explore. 
The technologies that are developed for these programs 
exemplify our greatest breakthroughs and demonstrate American 
ingenuity. This Committee will not permit this Administration 
to threaten the succession of these programs. Any efforts to 
cancel these programs will be met with stiff opposition.
    The Administration should develop solid plans for future 
exploration missions that foster support from the science and 
engineering communities. However, the Administration continues 
to push plans for an uninspiring and unjustified Asteroid 
Retrieval Mission. Just last week, NASA announced its strategy 
to develop the spacecraft bus that will be used for the robotic 
elements of that mission. The Administration continues to force 
this mission on NASA without any connection to a larger 
exploration roadmap and absent support from the scientific 
community or NASA's own advisory committees. This is a 
misguided mission without a budget, without a launch date, and 
without ties to exploration goals. It is a mission without the 
support necessary to make it a reality in the nine months 
remaining in the Obama Administration. It is just a time-
wasting distraction but maybe that is what the Administration 
really wants.
    Instead, the Administration should follow the advice of the 
NASA Advisory Council and more fully develop its human 
exploration plans, including a human flyby mission to orbit 
Mars. There are many options, but without a roadmap to guide 
the agency, NASA will continue to be subject to indirection and 
proposed budget cuts by the White House. For its part, Congress 
will continue to ensure that space exploration will receive the 
funding needed to stay on schedule and on budget.
    Great nations do great things. Fortune favors the bold. 
These next few years are critical. A trip to Mars can turn 
science fiction into science fact before our eyes and within 
our lifetime. The first flag to fly on the surface of Mars 
should be ours. I hope the Administration will join Congress in 
pursuing that goal.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Mr. Chairman. I appreciate those 
wise words.
    Now I recognize the Ranking Member of the full Committee, 
another person from Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning to all, and let me welcome our distinguished panel, and 
welcome our young people.
    I have made it well known that I consider NASA to be a 
critical national asset. NASA is a source of technological and 
scientific innovation, an inspiration to generations of young 
people, and a catalyst for economic growth. It is also a 
positive symbol of American preeminence worldwide and a 
demonstration of our commitment to international cooperation in 
the peaceful uses of outer space.
    Human exploration is a highly visible facet of NASA's 
multi-mission portfolio. It is thus appropriate to continue to 
examine the nation's human exploration strategy.
    At a June 2014 Committee hearing, we heard from the co-
chairs of the National Academies' review of the future of human 
exploration in the United States. That comprehensive review was 
conducted at Congress's direction. As I said at that time of 
the hearing, the Academies report did not mince words. It 
provided us with an important wake-up call. The report's 
conclusions were clear. We are not going to have a human space 
exploration program worthy of this great nation if we continue 
down the current path of failing to provide the resources 
needed to make real progress and failing to embrace clear--a 
clear goal and a pathway to achieving that goal. It rests with 
this Committee and Congress, not the White House, on what is 
authorized and what is appropriated in this Congress.
    What we need now is a clearly articulated plan on how we 
will get to Mars and what we called a roadmap in the House-
passed 2015 NASA Reauthorization Act and what the Academies 
called a pathway in their report.
    In just about one year, the nation will transition to a new 
Presidential Administration. Such transitions have, in the 
past, led to significant redirections in NASA's human 
exploration programs. Mr. Chairman, if that were to happen 
again, that would be a tragedy, and a wasteful one at that. It 
is Congress's responsibility to listen to the reports and make 
recommendations and authorizations accordingly.
    NASA has made significant progress since 2010 NASA 
reauthorization--Authorization Act was enacted. Fabrication of 
the Space Launch System is underway, flight testing of the 
Orion vehicle is confirming design objectives, ground systems 
are being modernized, and ways of mitigating the effects of 
long-term space travel are the subject of intense research on 
the International Space Station. In that regard, Mr. Chairman, 
I hope we can have an opportunity to hear from NASA, in the 
not-too-distant future, on the progress of its journey to Mars 
strategy and how investments in SLS, Orion, and ISS fit into 
that strategy.
    In conclusion, last week we honored the crews of Apollo-1, 
STS-51L, and STS-107. These brave men and women paid the 
ultimate price while furthering the cause of exploration and 
discovery. We as a nation owe it to them to continue this grand 
journey of exploration of the Universe. Future generations of 
Americans depend on us. We cannot blame anybody else but us. We 
must not let the nation down. We must not let our young people 
down.
    I thank you, and yield back.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Ranking Member Johnson.
    Now let me introduce our worthy and expert witnesses at 
this time. Mr. Tom Young, former Director of NASA's Goddard 
Space Flight Center, former President and Chief Operating 
Officer of Martin Marietta Corporation, and former Chairman of 
SAIC. Mr. Young joined NASA in 1961 as a member of the Lunar 
Orbiter Project Team and was Mission Director for the program 
Viking. Prior to being named Director of Goddard Space Flight 
Center, Mr. Young was Director of the Planetary Program at NASA 
headquarters and Deputy Director of the Ames Research Center. 
Mr. Young earned a bachelor of aeronautical engineering degree 
and a bachelor of mechanical engineering degree in 1961 from 
the University of Virginia. In 1972, he received a master's of 
management degree from MIT.
    Dr. John Sommerer is our second witness. Dr. Sommerer is a 
Technologist with over 35 years of professional experience and 
over 20 years of executive experience. He chaired the Technical 
Panel of the Pathways to Exploration report at the National 
Academy of Sciences. Dr. Sommerer received his B.S. and M.D. 
degrees in system science and mathematics from Washington 
University in St. Louis, an M.D. in applied physics from Johns 
Hopkins University, and his Ph.D. in physics from the 
University of Maryland.
    Dr. Spudis is our final witness today. Dr. Paul Spudis is a 
Senior Staff scientist at the Lunar and Planetary Institute in 
Houston, Texas. At LPI, Dr. Spudis's research focuses on the 
geological processes of the terrestrial planets and the study 
of the requirements for sustainable human presence on the Moon. 
He is the recipient of numerous awards and has authored or co-
authored over 100 scientific papers and seven books. Dr. Spudis 
received his B.S. and his Ph.D. from Arizona State University 
and his master of science from Brown University.
    I want to tell you how appreciative we are that you three 
illustrious gentlemen have come to speak with us today.
    I would now like to recognize Mr. Young for five minutes to 
present his testimony.

                  TESTIMONY OF MR. TOM YOUNG,

                        FORMER DIRECTOR,

               GODDARD SPACE FLIGHT CENTER, NASA;

         FORMER PRESIDENT AND CHIEF OPERATING OFFICER,

                  MARTIN MARIETTA CORPORATION

    Mr. Young. Chairman Babin, Ranking Member Edwards, and 
Committee members, I'm pleased to have the opportunity to 
present my views on the United States' human spaceflight 
program. While I'm a member of the NASA Advisory Council, my 
participation in the hearing today is as an individual 
representing only myself.
    The United States human spaceflight program from Alan 
Shepherd's initial suborbital flight and John Glenn's orbital 
flight to today's International Space Station has been rich in 
exploration excitement, scientific return and technological 
accomplishments.
    The success of the human spaceflight program for over five 
decades can be traced to many factors. Clearly the integration 
of the extraordinary NASA capabilities with the exceptional 
implementation capabilities of industry has been a major 
factor. NASA alone or industry alone could not have been 
successful. This is an important lesson as we plan for the 
future.
    Today the future of the human spaceflight program is far 
from clear. We know some critical parts of the puzzle, 
including the ISS, Commercial Cargo, Commercial Crew, SLS and 
Orion. There are many pieces that are yet to be defined and 
funded. These include a habitat module, landing systems, a 
solar electric propulsion tug, and a launch system for return 
from the surface of the Moon or Mars. We have continual debate 
as to whether our goal should be the Moon, Mars or both.
    We have a 2016 budget that allocates approximately $9 
billion for human spaceflight. The budget is divided roughly 
equal between LEO and exploration. What we do not have is a 
plan, strategy, or architecture with sufficient detail that 
takes us from today to humans on the surface of Mars or the 
Moon with a long-term goal of extended presence.
    I would like to offer my views on the existing and missing 
pieces of the puzzle, starting with the budget. If the 2016 
amount of $9 billion remains constant with the addition of 
inflation for the next two decades, there will be approximately 
$180 billion with today's buying power available. With that 
level of funding, significant progress can be made on a human 
exploration program.
    A study to define minimal architecture for human journeys 
to Mars initiated by Scott Hubbard and conducted at the Jet 
Propulsion Laboratory provides a credible argument that a Mars 
mission is feasible at these funding levels. I personally 
believe increases in the budget will be necessary to support a 
comprehensive program that includes appropriate precursor 
activities and missions to realize a responsible funding level 
for exploration. It's necessary also to make decisions between 
low-Earth orbit and activities in low-Earth orbit and to have a 
well-defined, highly focused plan that includes only those 
activities necessary for the success of the endeavor.
    Currently the human spaceflight budget supports both a LEO 
program consisting of ISS, Commercial Cargo and Commercial Crew 
and an exploration program consisting of SLS, Orion, and other 
exploration activities. Future budgets will be required to 
support the additional required pieces of the puzzle that I 
discussed earlier. The combination of the current LEO program 
and the desired exploration program are not affordable at 
current budget levels. A choice is required between the two 
programs.
    A sustainable exploration program requires that the 
necessary knowledge from ISS be obtained expeditiously followed 
by diverting current ISS funds to exploration. An alternative 
is to continue funding the LEO program and forego a credible 
Moon or Mars exploration program that results in humans on the 
surface within a reasonable schedule and budget. We cannot do 
both without a major augmentation of the budget.
    NASA has done an excellent job of maintaining a 
conservative cargo transportation capability. This conservative 
approach allows a mission failure or multiple failures to occur 
without catastrophic consequences. It also allows a management 
approach that relies heavily on the commercial partner with 
modest NASA involvement.
    Commercial Crew is much more challenging. A Commercial Crew 
failure that involves loss of the crew will be a catastrophe. 
This recognition requires Commercial Crew to be managed 
significantly differently than Cargo. Commercial Crew requires 
the full application of the NASA human spaceflight expertise in 
combination with the extraordinary implementation capability of 
industry to assure an acceptable probability of success. The 
concept often stated to let the commercial world be responsible 
for LEO activities with NASA responsible for exploration is not 
valid for Commercial Crew.
    The next topic I would like to address is the Moon-Mars 
debate. Each option has merit. While a human to the Moon 
program is highly challenging, a human to Mars program is much 
more difficult, challenging and costly. This latter factor must 
be taken into consideration in the debate. My opinion is that 
Mars is a much more compelling option. I believe NASA, the 
current Administration and the House in the NASA Authorization 
Act of 2014 and 2015 have settled upon the human to Mars 
option. It is clear again that we cannot do both and there is a 
need to focus all attention, capabilities and resources upon 
one option.
    For the remainder of my comments, I assume the humans to 
the surface of Mars option to be the choice. In my view, a plan 
is required for the following reasons. One: A plan is required 
for the implementation team to have a common focus. A plan is 
necessary to obtain program support. Without a plan, 
constituents cannot make an evaluation and know if they are 
supportive. A new Administration will be in place in about a 
year. Without a plan it will be difficult to obtain support and 
avoid another redo of the content and focus of the United 
States human spaceflight program. A plan is necessary to 
effectively define required technologies, including the level 
and schedule. A plan is necessary to effectively define 
supporting information needed from ISS and the NASA science 
program. A plan is necessary to identify the approximate level 
of required resources. A plan is necessary to assure resources 
are applied in the most effective manner. A plan is necessary 
to define precursor missions that should be planned and 
implemented. A plan is necessary to define the cislunar space/
proving ground activity that is currently evolving. It is 
important to do what is required for a successful exploration 
program and not what is possible. A plan is necessary to 
effectively assess risk and develop mitigation plans.
    An argument against a plan at the current time is that we 
are not ready to finalize the necessary elements of the plan. I 
believe a strength of NASA program management is to establish a 
plan relatively early with the recognition that as new 
information becomes available, the plan can be changed. I 
believe we have the opportunity to set a direction for the 
United States human exploration program that is exciting, 
realistic, inspiring, and sustainable. I believe the most 
compelling case is for the humans to the surface of Mars 
option.
    Decisions are required relative to LEO if a vigorous 
exploration program is to be pursued. This includes the future 
of ISS and Commercial Crew. Preparation is required for the 
transition to the new Administration. A plan in sufficient 
detail to maximize the probability of support and 
sustainability is required. Above all else, a plan with 
significant detail that takes us from today to humans on the 
surface of Mars is required.
    Thank you.
    [The prepared statement of Mr. Young follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you. Thank you very much, Mr. Young.
    I now recognize Dr. Sommerer for five minutes to present 
his testimony.

               TESTIMONY OF DR. JOHN C. SOMMERER,

                    CHAIR, TECHNICAL PANEL,

                PATHWAYS TO EXPLORATION REPORT,

                  NATIONAL ACADEMY OF SCIENCES

    Dr. Sommerer. Chairman Babin, Ranking Member Edwards, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to discuss the options for architectures and 
intermediate steps to develop the capability to send humans to 
Mars while maintaining constancy of purpose through the next 
and necessarily many subsequent Administrations.
    I had the privilege of chairing the Technical Panel of the 
congressionally mandated National Research Council Committee on 
Human Spaceflight, and I'm here to represent some 1 of the 
salient features of the salient features of that panel's 
conclusions about possible pathways to Mars, as well as some of 
my own views.
    The first, and by far most significant conclusion is that 
while sending humans to Mars, and returning them safely to 
Earth, may be technically feasible, it is an extraordinarily 
challenging goal from physiological, technical, and 
programmatic standpoints, and because of this extreme 
difficulty, it is only with unprecedented cumulative 
investment, and, frankly, unprecedented discipline in 
development, testing, execution, and leadership, that this 
enterprise is likely to be successful.
    To be explicit and to set the scale of the problem, the 
Technical Panel, aided by independent cost estimation 
contractors, and using a process that respected the importance 
of development risks based on technical challenges, capability 
gaps, regulatory challenges, and programmatic factors, as well 
as the need to maintain a reasonable operational tempo, 
concluded that the first crewed Mars landing might be possible 
20 to 40 years from now, after a cumulative expenditure of on 
the order of half a trillion dollars. The actual time frame and 
cost will depend greatly on the pathway chosen to achieve the 
goal, and candidly, the fastest and least expensive pathway 
that we examined comes with enormous risks to both the success 
of the missions and the lives of the astronauts conducting 
them.
    Let me briefly and very superficially review the most 
significant risks of attempting to send humans exploring in 
deep space. We know that prolonged exposure of astronauts to 
the space environment has the potential to harm them. 
Astronauts on long missions such as we're conducting now on ISS 
and have been conducted by the Soviets in the past with Mir 
have experienced potentially debilitating effects caused by the 
microgravity environment. Musculoskeletal deterioration has 
been best studied, and while exercise has the potential to 
mitigate its impact, the regimen needed over the long duration 
of a human mission to Mars may not be realistic.
    The radiation environment in space, especially deep space 
beyond the protection of the Earth's magnetic field, has been 
quantified largely in terms of increased cancer risk due to 
galactic cosmos rays, against which shielding is ineffective 
without prohibitive mass penalties. However, the non-
carcinogenic risks due to radiation such as cumulative neural 
degeneration are much less well understood and may well prove 
to be more limiting. It appears that with existing 
architectures for Mars missions, which include greater-than-1-
year stays on the Martian surface, which brings with it its own 
risks, physiological limits may not be prohibitive, although 
risks to the astronauts would be very high. Long-duration 
orbital missions at Mars, or on Mars' moons, may not be 
feasible at all, because of radiation.
    Few of the technological challenges of a crewed Mars 
mission are insurmountable, but cumulatively, they represent a 
huge gap relative to our current capabilities and our currently 
available resources. The Committee's final report includes a 
list of 15 high-priority technical capabilities, and most of 
the intersections of those capabilities against the various 
forms of challenge are red in risk assessment, things such as, 
there's no technical solution known. There's no such system 
that's ever been developed at the necessary scale. Current 
regulations impose significant challenges and will be difficult 
to change, and development to operational capability is on the 
order of previous large, national programs. In short, there is 
an awful lot of technical work to do.
    Having spent my life as a technologist, I can say that a 
large job list isn't altogether a bad thing but it does require 
a great deal of discipline, and a certain ruthlessness in 
pruning efforts that are not making needed progress or that 
don't accumulate to the intended goal. I applaud the fact that, 
with this Committee's and the Administration--appropriators' 
help, NASA finally has a Space Technology Mission Directorate, 
which has recently made some significant contributions to the 
capabilities that my panel identified as highest priority. 
However, in other areas that the panel identified as highest 
priority such as in-space power and propulsion, NASA appears to 
be maintaining the entire trade space of possible propulsion 
challenges. SLS and Orion aren't the only things we'll need to 
get to Mars.
    I also wish to note that one of the foundational 
conclusions of the technical panel is there's a very limited 
set of places for humans in the solar system for the 
foreseeable future given what we know about technology and 
physiology. We've been to the Moon so we know that's possible. 
We probably can go to some near-Earth asteroids, and as we've 
discussed already today, maybe we can get to Mars. Given the 
relative simplicity of the field of regard, there are 
tremendous technical and programmatic advantages to deciding, 
once and for all, where we're going, and in what order. Each of 
these possible destinations has proponents to be what's next, 
but given the size of the job jar, it's not helpful to keep 
changing our minds.
    The NRC Committee advocated that a defined pathway, with 
missions to the different possible destinations in sequence has 
some highly desirable properties such as that the sequence of 
missions and destinations permits stakeholders to see progress, 
that the pathway has a logical feed forward of technical 
capabilities, that the pathway minimizes the use of dead-end 
systems and equipment, that the pathway is affordable without 
incurring unacceptable development risk, and the pathway 
supports, in the context of the available budget, a reasonable 
operational tempo.
    The NRC did not recommend any particular pathway, but did 
assess three notional pathways against these attributes. The 
committee noted that the notional pathway that is closest to 
NASA's current plans has serious deficiencies with regard to 
the significance of the intermediate destinations, logical feed 
forward, the number of dead-end systems, and exceedingly high 
development risk. The committee also noted the two alternative 
pathways that did not have these efficiencies failed against 
the affordability and operational tempo attributes at current 
expenditure levels. To quote the Technical Panel's final 
briefing to the entire NRC Committee in 2013: ``In the current 
fiscal environment, there are no good pathways to Mars.''
    So I'd like to conclude briefly with some of my own views. 
I understand that there is bipartisan support for a ``go as we 
pay'' approach to human spaceflight. But just as it is not 
feasible to take a cross-country trip on a child's allowance, 
because of threshold costs, we may well never be able to get to 
Mars at current expenditure levels. It might be better to stop 
talking about Mars if there is no appetite in Congress and the 
Administration for higher human spaceflight budgets and no 
willingness to cut programs that do not contribute to progress. 
At a minimum, we should agree on a pathway that is satisfying 
to the public, even if it does not lead to Mars in the 
foreseeable future. A pathway that includes the surface of the 
Moon is one obvious possibility.
    Thank you.
    [The prepared statement of Dr. Sommerer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Yes, sir. Thank you, Dr. Sommerer. Those 
are interesting words.
    I now recognize Dr. Spudis for five minutes to present his 
testimony.

                 TESTIMONY OF DR. PAUL SPUDIS,

                       SENIOR SCIENTIST,

                 LUNAR AND PLANETARY INSTITUTE

    Dr. Spudis. Thank you, Mr. Chairman. I thank the Committee 
for this opportunity to give you my thoughts on our nation's 
program for human exploration of space. This testimony is my 
personal opinion and does not necessarily represent the views 
of my employer, the University Space Research Association.
    America's space program is in disarray. We pretend that we 
are on a journey to Mars but in fact possess neither the 
technology nor the economic resources necessary to undertake a 
human Mars mission now or within the foreseeable future. What 
we need is a logically arranged set of short-term, realizable 
space goal that are not only interesting in and of themselves, 
but whose attainment will build capability in the long term. 
Whatever goals are selected, significant milestones can be 
reached on a regular and recurring basis. Only in such a 
program can progress be mapped and resources allocated 
accordingly. Thus, any program to extend human reach beyond 
low-Earth orbit must be incremental, so that each step is small 
and affordable, yet cumulative, so that the smaller steps 
integrate into a larger coherent program.
    In 2010, the United States abandoned the goal of lunar 
return set by Vision for Space Exploration. Congress directed 
the agency to continue building the Orion spacecraft and to 
develop a new heavy lift launch vehicle, the Space Launch 
System. As derivatives of the canceled project Constellation, 
the new systems are optimized for missions to cislunar space, 
the zone space between low-Earth orbit and the lunar surface. 
To replace the Moon as a destination, several near-Earth 
asteroids were examined, which for various reason all were 
found to be unobtainable. Instead, NASA embraced the idea of 
bringing a small asteroid back to cislunar space where the 
Orion spacecraft visited, the so-called Asteroid Retrieval 
Mission. This idea was neither fully developed conceptually nor 
vetted through the scientific and engineering advisory 
structures that we maintain to review and judge mission concept 
proposals.
    As study of the asteroid retrieval concept has proceeded, 
the planned size of return object has continually decreased. 
Initially it was planned to return an asteroid about seven 
meters across. It is currently planned only to return a small 
one- to two-meter boulder. More than 85 percent of all near-
Earth asteroids are ordinary chondrites, a rock type so 
renowned for its uniformity that it is used as a compositional 
standard in cosmic chemical studies, and we also possess tons 
of this material as ordinary chondrites continually fall onto 
the Earth's surface every day. As a result of limited power and 
minimal loiter time, the Orion spacecraft does not possess the 
capabilities necessary to experiment with extracting useful 
resources from the asteroid. So the Asteroid Retrieval Mission 
does not contribute to our learning how to process and use the 
material resources of space.
    The microgravity of the ARM will not prepare us for human 
operations on the surface of Mars, which has approximately 1/3 
the gravity of the Earth. The ARM offers no unique benefits 
beyond providing a place for Orion to visit. In terms of 
scientific and operational importance, it is barren of real 
accomplishment and irrelevant to future deep space human 
missions.
    As for learning how to use space resources, it can only 
perform rudimentary reconnaissance of the type already 
accomplished or planned by a variety of robotic missions. 
Although it is claimed that the ARM develops technology needed 
for future Mars missions, specifically the High Power Solar 
Electric Propulsion Unit, missions to cislunar space can 
develop many of these technologies just as well and at the same 
time emplace space-based infrastructure for future use.
    Cislunar space, the space between Earth and Moon, is home 
to 95 percent of our scientific, economic and national security 
assets, satellites upon which we are critically dependent. We 
can reach these orbital levels with unmanned systems. When a 
satellite becomes obsolete or stops functioning, the only 
solution is replacement. If we could move people and machines 
throughout the various locales of cislunar space, we would be 
able to emplace, construct, and upgrade and maintain these 
satellites.
    To create this routine access to cislunar space, we should 
develop a permanent space-faring infrastructure including 
transport vehicles, staging nodes, deep space habitats, power 
stations, and fuel depots. In terms of the energy expended, all 
destinations in cislunar are essentially equal. If we can go to 
and from the Moon, we can go to and from all of the other 
localities in cislunar space. Such a system creates not only 
routine access to the Moon but to all of cislunar space, and it 
enables human missions to the planets beyond.
    To develop the system, it is vital that we learn how to 
harvest the material and energy resources of space. Such 
technology allows us to launch only the most technically 
advanced and critical equipment from the Earth while large-
mass, low-information materials such as propellant and life-
support consumables can be obtained from local sources. Thanks 
to a variety of robotic missions over the last decade, we now 
know that the Moon possesses these resources in abundance. The 
poles of the Moon contain billions of tons of water. In its 
liquid form, this can support human life, and when broken into 
its component hydrogen and oxygen, it is the most powerful 
chemical rocket propellant known.
    The United States thinks of itself as a world leader in 
space but our current lack of focus and strategic confusion 
undermine that claim. There is interest from Europe, India, 
Russia and China in lunar missions. These efforts are not 
undertaken merely to plant flags on another world but to reap 
the benefits offered by the exploration and utilization of the 
Moon. As the world beats a path to the Moon, we stand aside. 
How can we claim technological and scientific leadership in 
space when we shy from participation and seek no ownership in 
this arena of cislunar space?
    But there is another dimension to our abdication of 
leadership. China is rapidly developing the capability to 
travel throughout, loiter within, and intercept any target in 
cislunar space. They have also demonstrated advanced anti-
satellite warfare capability most notoriously with their 
interception and destruction of a target satellite in low-Earth 
orbit in 2007. Future Chinese anti-satellites loitering at an 
L-point in cislunar space could fly from the vicinity of the 
Moon down to lower orbits and approach direction that's not 
normally monitored and disable the satellites of other nations. 
In such a scenario, we would be left with a decided 
disadvantage as a result of our lack of commitment to the 
establishment of a strong national presence in cislunar space.
    America is at a critical juncture in the history of its 
space program. Congressional leadership is needed to set us on 
the correct strategic path. The development of the Moon and 
cislunar space answers important national needs. It is an 
incremental, affordable and useful direction, a sustainable 
path that creates new capabilities in space faring. A return to 
the lunar surface allows us to use the enabling asset of the 
Moon to journey to and explore the planets beyond.
    I thank the Committee for its attention, and I welcome your 
comments and thoughts, and I'm happy to answer any questions 
you might have.
    [The prepared statement of Mr. Spudis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Dr. Spudis, for those wise 
words.
    The Chair now recognizes himself for five minutes for 
questioning.
    The first one I'd like to direct to Dr. Spudis. Your 
testimony highlights the need for a sustainable program rather 
than one-off stunts, something that you have long espoused. In 
reference to ARM, A-R-M, your testimony also states that in 
terms of scientific and operational importance, it is barren of 
real accomplishment and irrelevant to future human deep space 
missions. Does ARM fit into the stunt category or is it in the 
sustainable category?
    Dr. Spudis. Well, put that way, I believe it falls into the 
stunt category. I don't think that it necessarily leads on to 
any permanent creation of capability, and that's what's needed. 
We need to approach the development of cislunar in a strategic 
manner so you have small pieces that build upon themselves to a 
larger whole purpose, and performing the ARM doesn't really 
gain you anything. It demonstrates that you can do it and 
that's about it.
    Chairman Babin. And Mr. Young, you testified that a new 
Administration will be in place in about a year, and that 
without a plan, it will be very difficult to obtain support and 
avoid another redo of the context and focus of our U.S. human 
spaceflight program. Will you please address the challenge of 
maintaining continuity for NASA's human exploration program, 
particularly during Administration changes, and what 
recommendations do you have to address this issue?
    Mr. Young. That's quite a good question. My first comment 
is, it's hard to sell a plan until you have a plan, so that's 
kind of step one in the process, in my view. My other comment 
is, it's not just any plan, you know, it's a plan that people 
both pro and con can recognize it as credible, and I think the 
ingredients of the plan really exist. One is, as I stated, I 
think there's a reasonable probability over the next two 
decades we'll spend $180 billion on human exploration. That's 
not a bad down payment, and so in my view, you know, that needs 
to be a critical part of the plan. I do think that'll have to 
be augmented.
    The second thing that I think is really important is to 
recognize that there is an interest horizon. There's a limit to 
how long you can hold out the ultimate goal and expect people 
to be excited about it. I think we could all debate what that 
is but I'm going to throw out something like going to Mars is 
two decades. I personally think if it's much beyond two 
decades, sustainability is pretty difficult. Somebody may say 
no, it's a decade and a half, but I will throw out two decades. 
So I think the plan has to recognize that within like a two-
decade time period, accomplishments at Mars, if that's our 
goal, really need to be happening.
    I think the other thing that needs to be recognized is, a 
plan encompasses leadership, and leadership is about making 
choices, and I think we have to make choices between LEO and 
the exploration program. I think we have to make choices 
between the Moon and Mars, you know, as the objectives. So my 
argument is that if a credible plan can be put together that 
has a reasonable time frame that makes incredibly efficient use 
of expected resources, if it's done in a manner that makes hard 
choices, then I think you have the groundwork or the basic 
input in order to be able to argue with the next Administration 
as to why this should be the sustained activity that should be 
the focus of the United States human spaced program. The 
corollary is, without it, I don't think you have a chance.
    Chairman Babin. Thank you, Mr. Young.
    For my final question directed to Dr. Spudis, your 
testimony mentioned that Europe, India, Russia and China have 
all planned missions to the surface of the Moon in recent 
years. You also state that as the world beats a path to the 
Moon, we stand aside. How can we claim leadership in a 
technological and scientific movement in which we have no 
participation and seek no ownership?
    In 2010, President Obama attempted to cancel deep space 
exploration and a return to the Moon by flippantly stating 
``We've been there before.'' Thankfully, Presidents Eisenhower 
and Kennedy did not take the same tack and wash their hands of 
space exploration after we successfully placed a satellite in 
space, a human in space, a human in orbit, and a human on the 
Moon surface. Congress rightfully rebuked President Obama's 
attempt to cancel deep space exploration with the passage of 
the NASA Authorization Act of 2010, and as we transition to a 
new Administration, what recommendations do you have for 
maintaining our leadership in space?
    Dr. Spudis. Well, I believe that it was a mistake to remove 
the Moon from the critical path because the Moon basically 
offers us the opportunity to create capability, and in fact, 
that's why it was part of the Vision for Space Exploration to 
begin with. The Moon is reachable, it's close, it's interesting 
and it's useful. It's close enough so that you can send a 
vehicle to the Moon any time. It's scientifically interesting 
in that you can address a lot of problems of wide discipline 
through lunar science studies and scientific studies to 
undertake near the Moon. But most importantly, and in fact, 
this I think is the critical thing to realize about the Moon, 
is that it is an enabling asset. It's useful. And we've since 
found in a variety of robotic missions that there is enormous 
quantities of water in the form of ice at the poles of the 
Moon. Water's the most useful substance you can have in space. 
It supports human life. It can be used as rocket propellant. It 
can be used as radiation shielding. It can be used as a medium 
for energy storage. So it's an extremely useful substance to 
have, and it's very heavy, and to launch it out of the Earth's 
gravity well, which is the deepest gravity well in the inner 
solar system, basically requires a lot of power, and that's why 
we need heavy-lift vehicles. By going to the Moon and 
developing those resources, you can actually create those 
capabilities by using the local materials that you find there.
    Chairman Babin. Thank you, Dr. Spudis. I appreciate that.
    I now recognize the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thank you, Mr. Chair, and panel, thank you 
all for being here.
    So we had a bunch of students. Do we have any students left 
in the audience? Are you guys students? Where do you go to 
school? And what year are you? And how old are you? Okay. So 
you're 24. Twenty-four plus 17, you'd be 41 when this is when 
we should get to Mars, and we had testimony, Dr. Sommerer, I 
think in December, maybe it was in November, from another panel 
that said that from an engineering and an astronomy standpoint, 
that the star--the planets line up in 2033 to make it feasible 
for us to land astronauts on the Moon, and so--pardon me--on 
Mars. And so we put this bumper sticker together that says 
2033, and on the bottom ``we can do this.'' And I know, 
speaking as one but having listened to other members of this 
Committee that Mars is this aspirational challenge that, you 
know, sparked something in us, and Mr. Young, you're right. If 
it's, you know, two centuries from now, we're all long gone, 
but this young woman, she could be an astronaut and set foot on 
Mars at that time.
    So here are my questions, and I don't think, Dr. Spudis, 
your testimony is contrary to getting us to Mars. It could be 
that the way you put the building blocks together, Moon is a 
key piece of this, and there is no question that it's going to 
take extreme commitment and extreme understanding to be able to 
do this well. Our job up here--and this is a quote that we 
got--I got from astronaut Terry Virts: ``Getting to Mars is not 
a question of rocket science but political science.''
    So Dr. Sommerer, I'm going to start with you. You said that 
in your research in the panel's investigation that this was 20 
to 40 years, and at least a half a trillion dollars. How did 
you come to that?
    Dr. Sommerer. First of all, I don't want to get into 
specious precision about half a trillion. It's on the order of 
half a trillion.
    Mr. Perlmutter. Fine.
    Dr. Sommerer. Maybe we'd get by with $180 billion. I don't 
think so.
    Mr. Perlmutter. But it's a lot.
    Dr. Sommerer. Yeah, it's a lot of money, and the reason 
is--by the way, the planets line up every two years basically 
for Mars, you know, 2033 is a nice round number to have in mind 
but, you know, it could be two years after that, it could be 
ten years after that. There's a lot of stuff you need to get 
people to Mars and bring them back. We need to have a long-term 
way of keeping them healthy on the way there. They need to 
spend time on the surface in a potentially hazardous chemical 
environment. We need to be able to launch them. We need to have 
prepositioned things that will keep them alive and make it 
possible to launch them. These are very complicated systems. We 
can learn a lot in cislunar space. We could have people 3 days 
away so that if something went wrong with their long-term life 
support system, we'd have a chance at getting them back, as 
indeed we did with Apollo 13. But if they're halfway to Mars 
and something goes wrong because we don't have the experience 
or we tried to do it a little too fast or a little too cheap, 
those people are gone.
    Mr. Perlmutter. But if you had----
    Dr. Sommerer. So let me----
    Mr. Perlmutter. If we somehow, Democrats, Republicans, 
Congress and the Administrations--and I figure there're going 
to be at least five Presidential elections between now and 
2033--and I'm happy to give you one of these bumper stickers--
and there are going to be 10 Congressional elections between 
now and then, but if we somehow all came together, said okay, 
we're going to put a percent of the entire federal budget 
towards getting us to Mars and that gets you $200, $300 billion 
over the course of the next 17 years, can we do this?
    Dr. Sommerer. Yes, but it takes, as Mr. Young has already 
said, a plan, what we're going to do, what we're not going to 
do, do the things that are necessary in a logical feed-forward 
way from the standpoint of technology, don't do everything 
because----
    Mr. Perlmutter. I'm just a lawyer, all right? I'm just a 
lawyer, and my senior partner had this little thing he put on 
our desks: ``Begin. The rest is easy,'' and then in 
parentheses, ``maybe.'' Okay? If we were to give you a date 
that had some legitimate basis in science, 2033, because the 
planets line up right, can the scientists and the engineers and 
the technologists build us a program that gets us there by 
2033?
    Dr. Sommerer. If you give them a date and the money and 
help with the discipline, the answer is yes. If any of those 
three things is missing, the answer is almost certainly no.
    Mr. Perlmutter. Thank you. I yield back to the Chair.
    Chairman Babin. I'd like to now recognize the gentleman 
from Oklahoma, Mr. Lucas.
    Mr. Lucas. Thank you, Mr. Chairman, and our friends on the 
panel, I think we probably have a number of versions of the 
same question here, and all of you have been before panels 
before. You understand that's the nature of the body, but as we 
try to address the issues.
    I turn first, Mr. Young, to you. In just two years, the 
United States will have the ability to return to the Moon with 
the Space Launch System and Orion for the first time in 40 
years, and for the first time ever go deeper into space, 
providing a historic opportunity for American leadership and 
exploration. Recently, of course, the NASA Director/
Administrator has stated that NASA would be doomed if the next 
President changes course and deviates from the developments of 
the Space Launch System and Orion, and if you could one more 
time to reinforce the point, discuss with us the risks there 
are in walking away from the investments made in these programs 
over the last decade.
    Mr. Young. First, and I think it's your point, there are no 
goals that involve human exploration that are significant that 
are not going to bridge Administrations today, so that's a fact 
that we're going to have to deal with. And so with a little bit 
repeating myself but it says that the current Administration 
needs to approach very seriously the transition to the next 
Administration in getting forward the rationale as to why 
sustaining the endeavor across the Administration is an 
important thing to do. As you're saying what are the downsides 
if you don't do that, I talked about this $180 billion, and I 
don't mean to treat that frivolously at all and I also don't 
mean to say that's everything that's needed, but it's 
reasonably logical that the activity will be sustained over the 
next couple of decades at that level. It would be such a shame 
if what we did was just waste that money and not have a 
sustainable program really. We have a graveyard today that's 
fairly extensive that has headstones of human spaceflight 
programs that consumed a lot of resources and ended up with no 
basic product, and I don't think we need any more headstones in 
that cemetery. What we really need is monuments to 
accomplishments.
    Mr. Lucas. Well put, Mr. Young.
    One more question. Part of your testimony indicated that 
the recent Human Orbiting Mars Workshop organized by the 
Planetary Society, the Space Policy Institute and the Jet 
Propulsion Laboratory provides a credible argument that a Mars 
mission is feasible at constant funding levels. Is there any 
reason that NASA could not use that as a baseline to plan 
against? Just expand a little more, sir.
    Mr. Young. Yeah. I was not a part of that activity, by the 
way. I'm familiar with it, and I think that what that what they 
focused on was a minimum mission. They were just trying to find 
a minimum credible mission. But I think the real contribution 
of that endeavor was, they got on the table, on the agenda a 
plan that most people think have some credibility relative to 
it to begin the process. Now, the pathway activity that the 
Congress initiated and was done by the National Academy did a 
similar thing. As it turns out, the budgeting--I don't know if 
budgeting's the right way to say it. The cost estimating 
activity that was done for this minimal mission we referred to 
was done by the same people with the same process as was done 
for the pathway activity. So my belief is, there're two options 
that have a lot of bases behind them. Probably neither one are 
the option that the country will converge upon but we should 
put those on the table, and we really should charge the 
leadership of this country to say look, you know, if we're 
really serious about humans to Mars, we've got to have a plan, 
and you know, and here are a couple of versions that says it's 
not impossible to have a plan. It's not impossible to have a 
good plan but what we've got to do is to converge on a plan 
that those who are charged with executing the plan really have, 
you know, have their own analysis involved in and their own 
recognition of the importance of a plan.
    Mr. Lucas. Thank you, Mr. Young, and Mr. Chairman, I yield 
back the balance of my time.
    Chairman Babin. Yes, sir. Thank you.
    Mr. Perlmutter, you had actually asked a question of one of 
my interns back there. That's Alexandra Abney. She's a Texas 
Aggie, and we're very happy to have her working in our office.
    Mr. Perlmutter. Maybe she sets foot on Mars.
    Chairman Babin. She might do that. I'm not sure you and I 
will be around, though.
    Mr. Perlmutter. Yeah, so carry it on.
    Chairman Babin. Right. Okay. Thank you.
    I'd now like to call on the gentleman from Texas, Mr. 
Veasey.
    Mr. Veasey. Thank you very much, Mr. Chairman, and I wanted 
to ask the panelists about partnerships and where would 
international and commercial partnership for human exploration 
in Mars make the most sense?
    Dr. Sommerer. So Mr. Young has already talked to the very 
effective partnership that NASA has had with industry and 
achieving our exploration goals to date and that needs to 
continue. You can't turn it over to industry. You can't just 
have it done by NASA in-house centers, I think.
    International partnership, the Technical Panel which I led 
was very explicit that that could be a good thing from the 
standpoint of sustaining commitment. It's credited as one of 
the things that sustained ISS through some particularly dark 
times. But what it probably doesn't do is save a lot of money. 
Something like 15 percent of the cost of ISS was borne by our 
international partners and the rest was paid for by U.S. tax 
dollars. You would have to have unprecedented levels of 
international contribution financially to substantially lower 
the burden on U.S. funding to go anywhere significant, but 
doing it collectively as a human species as opposed to a set of 
countries makes a great deal of sense scientifically from the 
standpoint of soft geopolitics, if you will, and other reasons.
    So commercial space entities will always be a part of the 
NASA program. I think that's necessary. But turning it over to 
them I don't think makes a lot of sense.
    Mr. Veasey. Are there international partners that we have 
already identified or that NASA has already identified that 
we've already begun to have very strong talks with to sort of 
start laying the foundation for future travel to Mars?
    Dr. Sommerer. I'm not in the Administration so I don't 
know, okay. I am a member of an international academy of 
astronautics. There's robust discussion amongst technologists 
and scientists in that group and in its various conferences, 
but you know, in terms of actual partners, I presume that we 
think that the ISS coalition will continue in some form with 
exploration. Europe has already expressed an interest in a 
lunar base. There are other significant players out there and 
some emerging players, and, you know, that's above my pay grade 
to say whether we should be involved with China or Russia.
    Mr. Veasey. Yes, sir?
    Dr. Spudis. I'd like to point out that in fact there's 
already international participation in the Orion SLS system 
because the Europeans are building service module for Orion, 
and Orion cannot do anything unless it has a service module. 
One of the things that could've been looked at that wasn't in 
2010 when the Moon--return to the Moon was dropped was getting 
an international partner to help us build the Altair. The 
argument of the Augustine Committee was that we couldn't afford 
to build both the Orion and the Altair--the Altair is the lunar 
lander part of the Constellation system--at the same time but 
it was not explored to look at the possibility of having an 
international participation in the building of the lander. So 
in actual fact, if Orion and SLS is the future of human 
spaceflight, we already have international participation.
    Mr. Veasey. Thank you, Mr. Chairman. I appreciate it. I 
yield back my time.
    Chairman Babin. Yes, sir. Thank you.
    Mr. Veasey. Thank you.
    Chairman Babin. Let's see. I'd now like to recognize the 
gentleman from Alabama, Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    I don't know if you're familiar with the economic news for 
America that's come out recently, particularly with respect to 
our deficit and debt, but it's taken a decided turn for the 
worse. The first-quarter numbers reflect that our revenues went 
up four percent but our spending went up seven percent 
according to the Congressional Budget Office, relying on 
Treasury Department numbers. Our first-quarter deficit was $36 
billion worse in this fiscal year compared to the previous 
fiscal year. If that were extrapolated out, that would mean 
that our deficit has gone up $144 billion worse this year than 
the previous fiscal year although the CBO projects that it will 
probably be more likely in the $130 something billion range 
worse. The CBO is also projecting that our total amount of debt 
is now going to blow though the $30 trillion mark within a 
decade, and the real question is whether America is going to be 
able to survive that, whether we will go through a debilitating 
insolvency and bankruptcy.
    So with that as a little bit of an economic background as 
to our country's finances, my question to you is, how do we 
avoid a repeat of the Constellation program's demise in 2010 at 
the hands of the Obama Administration, and a corollary to that 
is, what lessons did we learn and how can we apply what we 
learn to the Space Launch System and the Orion programs? The 
floor is yours.
    Mr. Young. I'll take a crack. The budget numbers that you 
talked about or the economic numbers are sobering, so I don't 
want to, you know, dismiss them at all. If I would look at 
myself personally, I would call myself a fiscal conservative so 
I worry about those kinds of numbers.
    I equally worry about what great nations do, and I think 
great nations do great things, and so I think that relative to 
the country as a whole, as we go through challenging economic 
times or challenge of whatever times there may be, I think that 
we are fortunate that we live in a country that has the ability 
to also do great things while we're meeting these challenges. 
So I put myself in that category of advocating working today's 
problem and planning for great things for the future.
    Relative again, and looking a little bit redundant, nothing 
troubles me more than to spend a reasonable amount of money to 
come back to maybe my crazy analogy here for another tombstone, 
and that's why I am personally am passionate about humans to 
Mars but I'm equally passionate about a good, disciplined plan 
that is not frivolous, and one of my colleagues commented, a 
plan that does what is required but also does not do what is 
not required, or maybe another way to say it, doesn't do just 
do what is possible. So a disciplined, structured plan that 
accomplishes what I'm calling what a great nation does a great 
thing is important. It may be naive but it's my belief that 
such a plan, well-constructed in a bipartisan, I guess, kind of 
an effort, I think that kind of a plan should be stable across 
Administrations, and if we as a country can't do things like 
that across Administrations, you know, when they're well 
thought out and well done, then shame on us. I'm an optimist--
--
    Mr. Brooks. Mr. Young, let me please interrupt. We're 
running short of time. So any of the other two gentlemen would 
also like to respond, please feel free to do so.
    Dr. Sommerer. Well, I'd like to reiterate Mr. Young's 
point, that probably we're going to spend $180 billion on human 
spaceflight in the country over the coming horizons unless that 
just stops altogether. Let's spend the money as wisely as we 
can.
    You could make an argument, and some do, and I have from 
time to time, that maybe we shouldn't have human spaceflight, 
that we ought to rely entirely on robotic probes, which are 
much more cost-effective for the scientific knowledge that's 
adduced. That's a choice that in really grim financial straits 
the country might be forced to make. But it doesn't seem to be 
something that people want to stand up and proudly say let's 
end the human space endeavor and rely on only robots, although 
the robot stuff is pretty cool, Mars, Pluto, et cetera.
    Dr. Spudis. I'll make this very brief, but we're compelled 
to be present in space for a variety of reasons. Modern 
civilization critically depends on the assets in cislunar 
space, so what I've tried to envision is a way to make the 
human program relevant to those critical needs, and what I've 
identified is the fact that if you go to the Moon and develop 
its resources to create a permanent transportation system that 
can access not only low-Earth orbit but all the points in 
between Earth and Moon, you've actually created a system that 
can not only maintain those critical space assets that we use 
every day but also inherently gives you the ability to go to 
the planets when you have that.
    So I am cognizant of the fact that we're in serious fiscal 
trouble. We've been in serious fiscal trouble for my entire 
adult life. But we've continued to spend money on space. We 
just haven't spent in a focused manner with a clear strategic 
direction, and I think that's what's needed.
    Mr. Brooks. Thank you, Mr. Chairman. I thank the witnesses.
    Chairman Babin. Thank you, Mr. Brooks.
    Mr. Posey is not here so we will go to the gentleman from 
Oklahoma, Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I'd like to, number one, thank you, Dr. Spudis, for your 
testimony. You mentioned three things I'd like to hit on. 
Number one, you talked about three specific missions: cislunar 
habitats, resource extraction from celestial bodies, and 
rendezvous, and proximity operations as it relates to doing 
servicing of satellites, and you were specifically talking 
about the human components of each of those, and I would like 
to bring up an issue that I think is important that we need to 
be talking about here on this Committee, and that is this, that 
there are commercial entities rising private capital right now 
that are capable of doing these missions, willing to do these 
missions, and these private companies. The risk is no longer 
raising capital, the risk is no longer even technological, 
although there is some risk there. Their major risk, from what 
I hear as a member of this Committee, this Subcommittee, the 
major risk is regulatory. They need certainty. They need to 
know that when they develop these technologies there's not 
going to be a government entity out there that says no, you 
can't launch, or no, you can't do that mission. And these are 
the challenges that we, I think, need to be addressing and 
looking at.
    When you think about remote sensing, NOAA has the authority 
to license, you know, remote sensing satellites. When you think 
about communications, the FCC has the ability to license 
communication satellites. But those three missions that you 
specifically mentioned, these are non-traditional kind of 
missions that we haven't been doing commercially yet, and yet 
right now we're raising capital--I say ``we''--private 
companies are raising capital to do these missions, and we need 
some kind of regulatory assurance that when they are ready, 
that there is nobody that's going to put the halt on their 
efforts. So thank you for bringing up those, and of course, I 
think your vision for cislunar space is critically important.
    I know a number of other people have touched on this but I 
want to be really clear, and I know, Mr. Young, you're not here 
representing the NASA Advisory Council. I know you're a member 
of it but you're here, you know, operating independently. But 
the NASA Advisory Committee warned that NASA runs the risk of 
squandering precious national resources if they move forward 
with the Asteroid Redirect Mission. Later, the NASA Advisory 
Council unanimously adopted a finding that it thinks NASA 
should change the Asteroid Redirect Mission into a mission that 
would go all the way to Mars and thus be more closely aligned 
with the goal of sending humans there.
    Mr. Young, two years ago you went as far as to say that the 
ARM proposal ``dumbed down NASA.''
    Mr. Spudis, your testimony states that ``ARM offers few 
scientific and scant operational benefits'' and that ``in terms 
of scientific and operational importance, it is barren of real 
accomplishments and irrelevant to the future human deep space 
missions.''
    Dr. Sommerer, your testimony highlights that the NRC panel 
that you participated in found that NASA's current plans which 
include ARM have ``serious deficiencies with regard to the 
significance of intermediate destinations, logical feed 
forward, dead-end systems and exceedingly high development 
risk.''
    That is not good testimony regarding the Asteroid Redirect 
Mission from any one of you. My question is really simple. Why, 
if there's this much consensus, why is the Administration still 
trying to force this mission on NASA, the scientific community 
and the American public? And I'd like you guys to speculate on 
that if you would. I have 1 minute left, and I'll just leave it 
to each of you. I'll start with you, Mr. Young, or you guys can 
decide.
    Dr. Sommerer. Fairly early in President Obama's 
Administration, he said we're not going to the Moon, we're 
going to an asteroid because we've been to the Moon. We did not 
actually have the capability to go to the asteroid for the 
foreseeable future for reasons that we've discussed. I think it 
is likely that that's an embarrassing position to be in, 
although I don't know what it's like to be President, and there 
were some people who came up with an idea that sort of got 
astronauts into the business of playing patty-cake with 
something that came from an asteroid, at least, and that seemed 
very attractive. But I agree with all of the statements that I 
think it's a mission which has no real purpose, especially in 
the context of deep space exploration.
    Mr. Bridenstine. Mr. Young, did you want to add to that?
    Mr. Young. No, I think I basically agree with the comment. 
I don't really know the answer to your question obviously. The 
reason for my comments and the other comments is that again I 
feel so strongly that we need to be doing those things that are 
critical to a successful human to Mars program and the mission, 
the Asteroid Retrieval Mission, is far below threshold as to a 
mission that contributes to that endeavor, in my view, and 
again to come back to relevant to that, one of the things 
that's argued is, well, out of that mission we got some 
technology and the technology is on the solar electric 
propulsion tug, and I think that's true, and the SES technology 
is needed, so do the technology. Don't encumber it with all of 
the other activities that's there, and I think that's why the 
NAC said look, a terrific thing would be taking SES flight to 
Mars, bringing it back and demonstrate the technology in a 
manner that it'll ultimately use relative to Mars.
    Mr. Bridenstine. And I'm out of time. Mr. Chairman, in 
closing I would just like to say that going back to my original 
statement, as these private companies are raising capital and 
they're retiring technological risk and they're ready to 
launch, we need to make sure this Committee is 100 percent 
committed to enabling and allowing them to do what they're 
supposed to be doing, which is advancing the human condition 
with commercial and private-sector capabilities.
    So thank you so much.
    Chairman Babin. Yes, sir. Thank you, Mr. Bridenstine.
    Mr. Posey, the gentleman from Florida, is back in here and 
so I'd call on him for a line of questioning.
    Mr. Posey. Thank you very much, Mr. Chairman.
    Dr. Spudis, in your testimony you stated that the United 
States abandoned the strategic goals for space set by Vision 
for Space Exploration in 2010 and eliminated the objective of a 
lunar return. The elimination of lunar return has left a vacuum 
in the National Space Exploration Policy that has yet to be 
filled. Should the United States return to the Moon in cislunar 
space and, if so, how does that fit, in your opinion, within a 
longer-term human exploration strategy?
    Dr. Spudis. Well, yes, sir, I do believe that, that the 
Moon played a critical role in the original Vision for Space 
Exploration in that it was a key enabler. It both enabled you 
to create the technology you needed to go deeper into space 
beyond low-Earth orbit and it also offered the ability to 
create all new capabilities such as the provision of 
consumables and propellant from lunar materials. So for this 
reason, I've advocated lunar return for a long time. The more 
we learn about it, the more promising it appears as a target, 
and you have to be able to build a system in an incremental 
manner using small steps so that you don't necessarily have a 
big wedge of money that you need to get started but at the same 
time you create long-term capability.
    So in my opinion, focusing on the development of cislunar 
space and specifically development of the resources of the Moon 
actually can create new capabilities that we currently don't 
have, and that includes the capability to go to the planets.
    Mr. Posey. Virtually--and I may have forgotten who did it 
but every witness we've ever had come before this Committee has 
said we need to have a lunar basis as part of the 
steppingstone. The only one we haven't got that from is NASA.
    Dr. Spudis and Dr. Sommerer, can you discuss what are the 
most important elements of the planned cislunar habitat that 
feed into the longer-term plan for the journey to Mars? What 
key technology development and scientific research can be done 
that will feed the forward to a human mission to the Martian 
system?
    Dr. Sommerer. One of the salient features of a mission to 
the Martian system is how long it takes, given our current 
propulsion capability and those we foresee could take years, at 
least a year. We've learned a great deal about environmental 
control and life support systems as part of the ISS. However, 
and I have this on authority from the engineers who are 
responsible for that, it's kind of a kluge. There's a lot of 
things that have been put together over time. They aren't 
totally compatible. You would, I would think, if you're an 
astronaut on your way to Mars, want to believe that that 
environmental control and life support system was going to be 
very reliable, not require constant maintenance, and was going 
to get you there safely. That's one of the things that you 
could do in cislunar space. You could develop that capability 
in cislunar space where you're only three days away from help 
if something does go wrong. That would be a very, very 
important contributor to Mars.
    The other thing that you can't do on the ISS is deal with 
galactic cosmos rays because it's such low altitude and deep in 
the Earth's magnetic field. We need to have a lot more 
experience with what radiation does to people on long-duration 
missions. That's something also that can happen in cislunar 
space where people are pretty close to help if things are going 
badly. Those are two things that I think are absolutely 
critical.
    Mr. Posey. Yeah, I'm a son of Apollo when they did all that 
without computers. They did it with slide rules. You know, as 
President Kennedy said, great nations do things because they're 
difficult, because they're hard, actually, he said, not because 
they're easy, and certainly this falls in that ballpark.
    Dr. Spudis, it's my understanding that commercial lunar 
mission backed by private-sector investors could be launched to 
the Moon as early as next year. As an advocate of lunar 
resource development, do you see value in commercial robotic 
missions and do you think NASA could benefit from including 
payloads on those missions?
    Dr. Spudis. Yes, I do, and I should preface this by saying 
I'm involved in one of those commercial companies. I advise 
Moon Express Incorporated on possible payloads. But in actual 
fact, there's a lot that you could accomplish with small 
robotic missions to help prepare the way for both human return 
and the development of lunar resources. For example, if you 
were able to fly a set of instruments that could measure 
surface hydrogen on a small lander and land it near the lunar 
poles, that is a key critical piece of strategic information 
that we don't have. It would also allow us to calibrate the 
remote sensing data that we have. I think it would be a very 
good investment of NASA funds to help provide instruments like 
that to any of these commercial missions for the simple reason 
that it's a cheap and inexpensive way to get very valuable 
long-term strategic information.
    Mr. Posey. Okay. And for you and Mr. Young, as seen with 
the successes of Commercial Cargo program and the progress 
being made with the Commercial Crew program, can you discuss in 
more detail how NASA can leverage public-private partnerships 
as human exploration program extends beyond the low-Earth 
orbit?
    Mr. Young. That's a broad question. As I said earlier, 
industry is a critical component of the exploration program in 
partnership with NASA. The commercial activity--I'm going to 
use Commercial Cargo as an example--in that particular 
circumstance, NASA or the country has turned a lot of the 
responsibility over to the commercial supplier, and I think in 
that instance, it was a good thing to do, and it was a good 
decision.
    I think we've got to be careful when we talk about 
exploration as to how we use the term ``commercial,'' and what 
I really mean by that is, I think it's going to take the best 
of NASA, the government and industry to do a human to Mars 
mission, and we should not do commercial experiments as a part 
of that endeavor. So I don't know whether I've specifically 
answered your question or not but I think there's a spectrum 
where the real term commercial makes an awful lot of sense and 
there are other activities where the nation has to provide the 
leadership form government with industry being an implementing 
partner to make things happen, so that's what I was trying to 
say.
    If I could--I know I'm cheating, but if I could make one 
comment on cislunar space that you talked about. I think there 
are and I agree with the Kennedy statement, which I think was 
good, but I think there are things that can and should be done 
in cislunar space that are necessary in order to have a human 
to surface of Mars mission with an acceptable probability of 
success. However, my caution would be, we don't need another 
space station in cislunar space that is basically going to be 
carrying on an R&D program there, and I think that was your 
implication also. So I think that again the plan we keep 
talking about will allow us to make the judgment as to in 
cislunar space, what is required, and we need to separate that 
from what we can do there because what we can do is probably--
not necessarily what needs to be done. I think cislunar space 
needs to be planned very well or it itself can become an 
enormous user of this resource that we're talking about.
    Mr. Posey. Thank you, Mr. Chairman.
    Chairman Babin. Yes, sir. Great line of questioning there.
    Now I'd like to recognize the gentleman from California, 
Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing. I'd like to identify myself 
with the comments of Congressmen Brooks and Bridenstine 
earlier. They made some very good points, and I'd like to also 
identify with our witness, Mr. Spudis. Is that how you 
pronounce it? Okay, Mr. Spudis, who is admonishing us to do 
things incrementally because it's affordable and getting 
something accomplished as compared to laying down a 20-year 
program of gigantic spending that will suck the money away from 
all the other projects that--NASA comes to mind in the next 20 
years. In the next 20 years, I'm sure we will have lots of 
great ideas that may be more important than spending money on 
getting a man to Mars and planting a flag and coming back. In 
fact, if the Mars mission is to be successful, it appears to me 
that we need,if we were to say our goal is to have an American 
on Mars, we need to ask for volunteers and say you're not 
coming back, that's the only way that would be affordable, and 
that's just a thought.
    In terms of the greatness challenge, I agree with you. 
America needs to do great things, and we are doing great 
things, but inspire young people--we now have reusable rocket 
system being developed, and that came from the private sector, 
and we have, you know, Virgin Galactic about ready to make 
suborbital space a major part of Americans and western 
civilization because it's going to spread us all over the world 
in a matter of minutes. These are great things that these young 
people are going to be able to participate in that didn't exist 
before. Blue Horizon, SpaceX, Virgin Galactic, they're doing 
great and historic things.
    Let me just note that if we do decide, and it looks like go 
to Mars, I've heard this for 20 years, it looks like that's 
what people are forcing into this mode of spending. Ten years 
down the road, ten years down the road, if we have committed 
ourselves to so many billion dollars every year that we're 
spending and we end up spending $20 billion, $30 billion down 
the road and let's say at that point a meteorite, instead of 
skimming Russia like it did in 2013, a meteorite would hit a 
city and kill hundreds of thousands of people, can I tell you 
what that would do the priority of space spending for this 
body? They would cut everything off because then the public 
would demand that we were spending our money on global defense 
rather than on planting the flag on Mars, and all of that money 
that we'd spent then would've been wasted. What I just 
described is not a scenario that will never happen. It may 
never happen but it could well happen. There's nobody in this 
room who believes that might not happen in the next 20 years.
    So let's make sure that we do things incrementally so when 
we are spending at least if we do have to change spending 
priorities in the future, all of that money won't be wasted, 
won't be right down the toilet. We can't afford to do that. As 
Mr. Brooks pointed out, we can't afford to waste billions of 
dollars. We just can't afford that. It will bring us down as a 
country rather than uplift our country, which is what the space 
program is supposed to do.
    So I would suggest that maybe we need to calibrate our 
plans. We have global defense, which I just mentioned, is 
really an important thing. Clearing space debris--pretty soon 
we're not going to be able to use space unless we actually 
initiate a program that's going to clear the space debris that 
will--again, when we're talking about our young people, our 
young people, they're used to now living in a world where we 
have GPS and we have telephones and we have all sorts of 
utilizations of space, and unless we start clearing that 
debris, there's going to be no more ideas about utilizing space 
because there won't be any space up there to do this. It'll be 
filled with debris.
    So we have these challenges, and I would just hope that as 
we're discussing manned missions to Mars, that we keep in mind 
that if we end up defunding all these other programs, it'll 
bring us down. It'll bring the American space program down.
    So with that said, let me ask about the Moon. I guess I'm 
already over. I'm sorry. By the way, Mr. Chairman, I was the 
Chairman here of this Subcommittee years ago, and frankly, we 
had to force NASA to go around the Moon by the poles in order 
to find out if there was going to be water or not. We had to 
basically force NASA to do that. They did not want to change 
the pattern of just going around parallel.
    Give us--and you already mentioned this in passing. Give us 
an example--again, if we have water on the Moon and we've 
expanded--now we know there's considerable water, that will 
permit manned presence on the Moon and will then also permit us 
to further manned use of space beyond the Moon. Is that 
correct?
    Dr. Spudis. Yes, sir. Effectively, the Moon has two 
resources to offer at the poles. One is the water, which is in 
the form of deposits of ice that have been stable for billions 
of years, and apparently it's present in massive quantities. If 
the estimates from our remote sensing are correct, there are at 
least hundreds of millions of tons. I personally think there 
are over billions of tons.
    The second thing you have that's critical are zones on the 
Moon near the poles which are in near permanent sunlight, which 
allows you to essential stay on a sustainable basis on the 
Moon. Now, water is useful both for sustaining human life--you 
can drink it, you can use it for sanitation, you can protect 
yourself from radiation--but more importantly, it's the most 
powerful chemical rocket propellant we know of. If you split 
water into its component atoms and then freeze that into a 
liquid, you've got liquid oxygen and liquid hydrogen, which is 
basically what the space shuttle main engine uses. There's 
enough ice at the poles of the Moon to launch the equivalent of 
a space shuttle every day for over 2,000 years. So that's a lot 
of water. You're not going to run out of it soon. And if you're 
able to access it and process it and store it and send it into 
space, you've actually created a fueling depot that will allow 
you to go Mars on a sustainable basis.
    Mr. Rohrabacher. What would it cost--now, we're talking 
about--we just mentioned the costs of going to Mars. What's the 
cost of what you're talking about?
    Dr. Spudis. It depends on how you approach it, and a lot of 
people have published ideas on this. I have published a paper 
on it. There was another paper this past summer. But I 
certainly think it's less than $100 billion. The key is to use 
robotic assets to get started, and then use people as they 
become necessary. So you can do this on the Moon. You can't do 
it on asteroids and you can't do it on Mars because the Moon is 
close. So you're able to remotely control robots via 
teleoperation from the Earth, and you can't do that on the more 
distant targets.
    Mr. Rohrabacher. Well, I just note, Mr. Chairman, when I 
talk about the potential of our space commercial sector and 
space refueling is also something they could do more not from 
Mars, and again, a private company might want to put up a space 
refueling station, and that would enable us perhaps to bring 
down the cost for space exploration and also for Moon missions.
    And one last thought, and that is, I really think Elon Musk 
is going to be on Mars before NASA gets there, and it's just a 
thought. Thank you.
    Chairman Babin. Thank you, Mr. Rohrabacher.
    I'd like to recognize the gentleman from California, Mr. 
Knight.
    Mr. Knight. Thank you, Mr. Chair.
    You know, there's been a good discussion here today. I 
think that a lot of this does revolve around money. I think 
much of it revolves around technology. I think that Mr. 
Perlmutter might want to change that bumper sticker, and just 
the first number. You don't have to change the second number 
but the first number in the years there. It's not going to be 
2033. We are a ways away from going to Mars and getting back. 
We can go to Mars but getting back is going to be a problem.
    I think that one of the discussions about Apollo 13, when 
you're 100,000 miles away, it's a lot different than when 
you're 25 million miles away. There is no help at 25 million 
miles. So that is a distinct problem that Americans probably 
will not take for their astronauts to be in that kind of peril 
anytime soon.
    The second thing is money. If we're going to spend $12 
billion on this over the next 15 years or 17 years to get us 
there, that will be an issue. Right now, NASA only spends about 
three percent of their budget on aeronautics, and I have 
complained about that and I'll complain about that as long as 
I'm in Congress. I think that that is criminal that we spend 
three percent of our budget on aeronautics when a lot of the 
products that comes out of NASA is for us right here, either in 
general aviation or in commercial aviation, and we still only 
spend 3 percent.
    We have been working on scramjet technology for 50 years. 
We are still working on that. We are still a ways away from 
that, and I think that that technology is part of a big 
problem.
    But I have a question, and that is on the lines of the 
experiments we've done in the Space Station, and one of the 
experiments that's happening right now with a twin on the 
ground and a twin at the Space Station for a year. Do any of 
you believe that at this point we can say that safely a man can 
travel or a woman can travel to Mars and be returned to Mars in 
maybe a two-and-a-half-year mission, and with what we know 
today, do you believe that that is doable, feasible? Not 
doable, but yes, we will get something back, that that person 
will come back.
    Dr. Sommerer. I think it poses a significant risk based on 
what we know. NASA actually has a pretty good human research 
program but given the resources that they're dealing with, 
there are significant uncertainties about what the microgravity 
and the radiation impact to say nothing of the chemical hazards 
that Mars might do to the health of astronauts.
    Mr. Knight. My second question, I think you hit on it 
earlier, is the propulsion. Our propulsion hasn't changed in 
many, many years from basically the beginning of rockets. It's 
going to take us about a year to get to Mars today. Do you see 
over the next 15 or 20 years some sort of propulsion system 
that is going to speed that up dramatically so that we can get 
to Mars in maybe a less than six-month period?
    Dr. Sommerer. Certainly, I don't see it happening if we 
don't work on it.
    Mr. Knight. And I would make that statement to everything. 
If we spend the money and we work on it, I believe that the 
American ingenuity can do this. I believe that we can do this 
in that time period. I don't think that there is a push to do 
it, and I don't think there's a push to do it consistently. And 
Mr. Rohrabacher talked about an awful lot of programs that--and 
Mr. Young talked about the headstones in the cemetery. I 
believe that, but I also believe that you get things from that.
    There was a program in the late 1950s and early 1960s 
called the X-20 Dinosaur. I think that that was the first space 
shuttle that we would have ever built and it would have been 
very successful. We abandoned that program for lack of a 
mission and for funding, and we wanted to send a man to the 
Moon.
    I think that we learned an awful lot from the X-20 
Dinosaur, and I think if Jeff Greeson was here today, he would 
say we learned an awful lot because he's building something 
that is very similar to the X-20 Dinosaur.
    So just because a program was canceled or just because a 
program never left the launching pad doesn't mean we didn't 
learn something from it, doesn't mean that that money might not 
have been well spent. But I will agree with Mr. Rohrabacher. If 
we don't use the program and we spend hundreds of billions or 
tens of billions, the taxpayers do feel at a loss.
    So I think that NASA can do anything that they put their 
mind to and anything that we can fund. Thank you, Mr. Chair.
    Chairman Babin. Yes, sir. Thank you, Mr. Knight.
    I think this has been an excellent exchange of ideas from 
you expert witnesses. We really appreciate this, and--because 
there's a great deal of question marks out there about what 
we're going to do and the missions we're going to have, and the 
old saying, do we have guns or butter or guns and butter, and 
obviously today all three of you, if I'm reading you right, say 
it's got to be either guns or butter in this situation about 
whether we go to Mars or back to the Moon. And we have our work 
cut out for us.
    And I agree that whatever NASA puts their mind to, we can 
do, but we do have the parameters of an almost $20 trillion 
national debt that we have at this point in time, but I think 
with what we gain from our space program, it is in great--as 
you said a while ago, Mr. Young, great nations do great things, 
so I think we have our marching orders. We just have to get 
organized on this.
    So I just want to say thank you to all three of you, and 
thank you to the audience out there, and thank you for this 
line of questioning. And so I adjourn the hearing.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
